  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




        CHIROPRACTIC CARE

Comparison of Medicare Managed Care and
            Fee-For-Service




                     JUNE GIBBS BROWN
                      Inspector General

                          JUNE 2000
                        OEI-04-97-00495
                        OFFICE OF INSPECTOR GENERAL

Public Law 95-452, as amended by Public Law 100-504, mandated the mission of the Office of
Inspector General (OIG). That mission is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

       Allison Grablowsky, Lead Analyst             Brian Ritchie, Program Analyst

       Tricia Davis, Program Specialist             Barbara Tedesco, Mathematical Statistician

       Scott Horning, Program Analyst               Joe Townsel, Program Analyst

       Graham Rawsthorn, Team Leader





To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports
are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                                   TABLE OF CONTENTS

                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


FINDINGS


         Managed care versus fee-for-service utilization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


         Direct access versus physician referral . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


         Direct access versus fee-for-service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


         Chiropractors provided most treatments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         Co-payments not limiting access . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES


         A. Respondent vs. Non-Respondent Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


         B. Summary of Chiropractic Utilization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


         C. HCFA Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1

                                   EXECUTIVE SUMMARY

PURPOSE

         To compare chiropractic utilization in Medicare managed care risk plans to that in fee-for-
         service.

BACKGROUND

         We previously completed a report describing policies and practices for providing
         chiropractic services to Medicare beneficiaries in seven managed care organizations —
         report number OEI-04-97-00494. Following issuance of that report, Health Care
         Financing Administration staff requested that we do a national analysis of chiropractic
         utilization in managed care as compared to that in fee-for-service.

         Most Medicare beneficiaries can choose between the Medicare managed care program and
         the fee-for-service program. Medicare fee-for-service coverage of chiropractic services is
         limited to manual manipulation of the spine to correct a subluxation. Managed care plans
         offer that service, and can offer other chiropractic services. However, in this study,
         “chiropractic services” refers solely to the allowed Medicare benefit of manual
         manipulation of the spine to correct a subluxation.

         We e-mailed a standardized survey to all 310 Medicare managed care risk plans to obtain
         utilization and other data. We obtained fee-for-service chiropractic utilization data from
         the Health Care Financing Administration — Part B Extract and Summary System, annual
         Data Compendiums, and the National Claims History file. We did a comparative analysis
         of the managed care and fee-for-service chiropractic utilization data from 1996 through
         1998.

FINDINGS

         Chiropractic utilization in managed care risk plans was lower than in fee-for-
         service. In 1998, 1.43 percent of beneficiaries in managed care risk plans used
         chiropractic services compared to more than 4 percent of beneficiaries in fee-for-service.
         In the same year, managed care beneficiaries received about seven chiropractic treatments
         per beneficiary compared to approximately nine treatments per beneficiary in fee-for-
         service.

         Chiropractic utilization was higher in managed care risk plans when direct access
         was allowed versus primary care physician referral, but it was still lower than in fee-
         for-service. In 1998, 2.14 percent of beneficiaries in managed care risk plans that allowed
         direct access used chiropractic services compared to 1.08 percent of beneficiaries in plans
         that required a physician referral. Whereas, 4.42 percent of beneficiaries in fee-for-service
         used chiropractic services. During the same year, beneficiaries in managed

Chiropractic Care: Medicare Managed Care and Fee-For-Service   1                         OEI-04-97-00495
         care risk plans that required a physician referral received about six treatments per
         beneficiary. In contrast, beneficiaries in managed care risk plans that allowed direct access
         and beneficiaries in fee-for-service received about nine treatments per beneficiary.

         Chiropractors provided most of the chiropractic treatments to beneficiaries in
         managed care risk plans. In 1998, chiropractors performed 91 percent of the
         chiropractic treatments in managed care risk plans and 99 percent of the treatments in fee-
         for-service.

         Managed care risk plans did not use co-payments to limit beneficiary access to
         chiropractic services. Of the 244 respondents, 220 plans required a co-payment to
         access chiropractic services. The co-payments ranged from $3-$27 with the most
         common co-payment being $5. The chiropractic co-payments were the same as co­
         payments for other similar services.

COMMENTS

         The HCFA concurred with our findings and offered several technical comments. We
         made appropriate revisions. The full text of their comments is in Appendix C.




Chiropractic Care: Medicare Managed Care and Fee-For-Service   2                         OEI-04-97-00495
                                              INTRODUCTION

PURPOSE

         To compare chiropractic utilization in Medicare managed care risk plans to that in fee-for-
         service.

BACKGROUND

         We recently completed a report describing policies and practices for providing
         chiropractic services to Medicare enrollees in seven managed care organizations.1 That
         report compared chiropractic utilization in the managed care organizations to that in fee-
         for-service. As our report represented a limited sample, the results were not projectable.

         However, following issuance of that report, Health Care Financing Administration staff
         requested that we do a national analysis of chiropractic utilization in managed care as
         compared to that in fee-for-service. Such a national study would enhance their
         understanding of chiropractic policies and practices in managed care organizations.

Chiropractic Services in Managed Care and Fee-For-Service

         Most Medicare beneficiaries can choose between Medicare managed care plans, or the
         fee-for-service program.2 Managed care risk plans require beneficiaries to use approved
         plan providers.3 About 5.3 million Medicare beneficiaries were enrolled in managed care
         risk plans in 1998.

         Fee-for-service allows beneficiaries to use any doctor, hospital, or other health care
         provider who accepts Medicare. About 32.5 million Medicare beneficiaries were enrolled
         in fee-for-service in 1998.

         Medicare fee-for-service and managed care plans are required to provide the chiropractic
         service of manual manipulation of the spine to correct a subluxation.4 In addition,
         managed care plans can offer other chiropractic services. Beneficiary utilization, however,
         can differ among fee-for-service and managed care plans. In this study, “chiropractic
         services” refers solely to the Medicare benefit of manual manipulation of


         1
             Chiropractic Services Covered by Medicare Managed Care Organizations (OEI-04-97-00494)

         2
             Beneficiaries with end-stage renal disease are not eligible to participate in the managed care program.

         3
          The managed care risk plans discussed in this report are now known as Medicare+Choice risk plans. The name
change is due to the Balanced Budget Act of 1997 which established the Medicare+Choice program beginning 1999.

         4
           According to the Medicare Carrier Manual, a subluxation is defined as the incomplete dislocation, off centering,
misalignment, fixation, or abnormal spacing of vertebrae or intervertebral units.


Chiropractic Care: Medicare Managed Care and Fee-For-Service     3                                               OEI-04-97-00495
         the spine to correct a subluxation. Such chiropractic services can be provided by any
         provider meeting the definition of “physician”. The term “physician” as defined by
         section 1861 of the Social Security Act, includes doctors of medicine, osteopathy, and
         chiropractic.

Prior Chiropractic Studies

         As part of our continuing study of Medicare and Medicaid issues, we published several
         reports on chiropractic care over the past two years. For example, in addition to the
         previously mentioned study of seven managed care organizations, we issued reports on
         controls used by Medicare, Medicaid, and other payers, Medicaid coverage of chiropractic
         care, and utilization parameters for chiropractic treatments. Our website,
         http://www.dhhs.gov/progorg/oei, lists our current reports on chiropractic issues.

METHODOLOGY

         The Health Care Financing Administration maintains centralized data systems that capture
         utilization data on services provided to Medicare beneficiaries enrolled in fee-for-service.
         However, no such centralized data system exists to capture utilization data for
         beneficiaries enrolled in managed care plans. Therefore, we developed our own database
         on chiropractic utilization in managed care risk plans.

         To do so, we surveyed all 310 managed care risk plans in April 1999. We e-mailed a
         standardized data collection instrument to each plan. As needed, we followed-up on
         incomplete and non-responses. Ultimately, 244 plans provided self-reported information
         — a 79 percent response rate. In instances where managed care plans did not respond to
         a particular question, we based our analysis on the number who responded. Where
         applicable, we noted the differences throughout the report.

         Although HCFA did not require managed care plans to capture utilization data for
         chiropractic services, 190 of the 244 respondents claimed to capture such data. However,
         not all 190 plans provided complete utilization data for each year of our inspection period
         — 1996 through 1998. We defined complete utilization data to include the number of
         beneficiaries enrolled, the number of beneficiaries receiving chiropractic services, and the
         number of treatments received. For example, 125 plans provided complete 1998
         utilization data. The 125 plans represented 53 percent of the Medicare enrollees in the
         244 plans that responded.

         The 54 plans (244-190) provided several reasons why they did not capture utilization data.
         The two most common reasons were they 1) paid physicians a set amount to provide
         chiropractic services to their enrolled beneficiaries, i.e. a capitated payment, and 2) had
         few Medicare beneficiaries enrolled.

         We obtained fee-for-service chiropractic utilization data from the Health Care Financing
         Administration. First, we used Data Compendiums to identify the number of Medicare
         beneficiaries. Next, we used a 1 percent sample of the National Claims History file to
         estimate the number of beneficiaries using chiropractic services. The 1 percent sample

Chiropractic Care: Medicare Managed Care and Fee-For-Service   4                         OEI-04-97-00495
         provided a large number of claims, and a high degree of precision. Finally, we used the
         Part B Extract and Summary System to determine the number of treatments received by
         beneficiaries and the allowed charges for the treatments. The specific codes associated
         with the chiropractic service were A2000, 98940, 98941, and 98942.

         We did a comparative analysis of the managed care and fee-for-service chiropractic
         utilization data for 1996 through 1998 as shown in Tables 1 through 6. In addition, we
         summarized the tables in Appendix B.

         Finally, we conducted non-response analyses. First, we did an analysis to determine if
         significant differences existed between the 244 plans that responded and the 66 plans that
         did not respond. We found a significant difference based on the size of the plan, therefore,
         we conducted more detailed analyses. We based the analyses on whether plans required
         co-payments, and whether a plan allowed direct access or required a physician referral.
         We found no response/non-response bias.

         The second analysis was conducted because all respondents did not provide complete
         utilization data. Among the 125 plans that provided complete utilization data for 1998,
         we found no bias in plans that conducted or did not conduct utilization reviews. Appendix
         A shows our non-response analysis in detail.
                                  ____     ____     ____      ____

         We conducted our inspection between January 1999 and November 1999. We conducted
         this inspection in accordance with the Quality Standards for Inspections issued by the
         President’s Council on Integrity and Efficiency.




Chiropractic Care: Medicare Managed Care and Fee-For-Service   5                        OEI-04-97-00495
                                                    FINDINGS

Chiropractic utilization in managed care risk plans was lower
than in fee-for-service, but it has increased
Beneficiary use

         Beneficiaries in managed care (MC) risk plans used chiropractic services to a lesser extent
         than did those in fee-for-service (FFS). Table 1, for example, shows that 1.43 percent of
         beneficiaries in managed care risk plans used chiropractic services in 1998. In contrast,
         more than 4 percent of fee-for-service beneficiaries used chiropractic services.

                                                Table 1
            Beneficiaries Using Chiropractic Services: Managed Care versus Fee-For-Service
                                                1996                           1997                        1998
                                        57 MC           FFS             99 MC          FFS         125 MC           FFS
                                      risk plans                      risk plans                  risk plans
          Number of Medicare           1,532,256 33,509,382            2,224,235   32,933,535      2,767,418 32,545,955
          Beneficiaries
          Beneficiaries using              10,644      1,391,600          26,763      1,405,400       39,669       1,437,200
          chiropractic services
          Percent using                    0.69%          4.15%           1.20%          4.27%        1.43%           4.42%
          chiropractic services


Treatments per beneficiary

         Beneficiaries enrolled in managed care risk plans, on average, received fewer chiropractic
         treatments per beneficiary than did those in fee-for-service. To illustrate, Table 2 shows
         that managed care beneficiaries received about 7 treatments per beneficiary in 1998.
         Medicare beneficiaries in fee-for-service averaged about 9 chiropractic treatments.

                                               Table 2
            Chiropractic Treatments Per Beneficiary: Managed Care versus Fee-For-Service
                                                1996                           1997                        1998
                                        57 MC           FFS             99 MC          FFS         125 MC           FFS
                                      risk plans                      risk plans                  risk plans
          Beneficiaries using             10,644       1,391,600          26,763      1,405,400       39,669      1,437,200
          chiropractic services
          Number of                       70,592 12,274,583             185,820 12,957,421          295,226 13,491,616
          treatments received
          Treatments per                     6.63              8.82         6.94           9.22         7.44            9.39
          beneficiary


Chiropractic Care: Medicare Managed Care and Fee-For-Service     6                                             OEI-04-97-00495
Recent overall increases

         From 1996 through 1998, chiropractic use increased in both managed care risk plans and
         fee-for-service. However, chiropractic use increased to a greater extent in the managed
         care risk plans. To illustrate, Table 1 shows that the percent of beneficiaries using
         chiropractic services increased from 0.69 to 1.43 percent in managed care plans. In fee-
         for-service, however, the increase was from 4.15 to 4.42 percent.

         Also, from 1996 through 1998, the average number of treatments per beneficiary
         increased more in managed care than in fee-for-service. To illustrate, Table 2 shows that
         the number of treatments per beneficiary increased from 6.63 to 7.44 treatments in
         managed care risk plans — an increase of .81 treatments per beneficiary. In fee-for-
         service, the increase was from 8.82 to 9.39 — an increase of .57 treatments per
         beneficiary.


Chiropractic utilization was higher in managed care risk
plans when direct access was allowed versus primary care
physician referral
Beneficiary use

         More beneficiaries used chiropractic services when managed care plans allowed direct
         access than when the plans required a primary care physician referral. For example, in
         1998, 2.14 percent of beneficiaries enrolled in managed care risk plans that allowed direct
         access used chiropractic services. Conversely, 1.08 percent of beneficiaries enrolled in
         managed care risk plans that required a primary care physician (PCP) referral used
         chiropractic services.

                                                Table 3
             Beneficiaries Using Chiropractic Services: Managed Care Direct Access versus
                                   Primary Care Physician Referral
                                         1996 — 57 plans              1997 — 99 plans          1998 — 125 plans
                                        Direct          PCP          Direct        PCP         Direct          PCP
                                       Access         Referral      Access       Referral     Access         Referral
                                      (17 plans)     (40 plans)    (35 plans)   (64 plans)   (43 plans)     (82 plans)
          Number of Medicare             522,727      1,009,529      762,904     1,461,331     919,037       1,848,381
          Beneficiaries
          Beneficiaries using               4,444          6,200       12,739       14,024       19,622          20,047
          chiropractic services
          Percent using                    0.85%          0.61%        1.67%        0.96%        2.14%           1.08%
          chiropractic services




Chiropractic Care: Medicare Managed Care and Fee-For-Service   7                                          OEI-04-97-00495
Treatments per beneficiary

         Beneficiaries received more chiropractic treatments, per beneficiary, when managed care
         plans allowed direct access than when the plans required a primary care physician referral.
         To illustrate, in 1998, beneficiaries received, on average, 9 treatments when allowed direct
         access. However, beneficiaries enrolled in plans requiring a primary care physician
         referral, received about 6 treatments per beneficiary.

                                               Table 4
              Chiropractic Treatments Per Beneficiary: Managed Care Direct Access versus
                                   Primary Care Physician Referral
                                          1996— 57 plans                 1997— 99 plans           1998— 125 plans
                                        Direct          PCP             Direct        PCP         Direct          PCP
                                       Access         Referral         Access       Referral     Access         Referral
                                      (17 plans)     (40 plans)       (35 plans)   (64 plans)   (43 plans)     (82 plans)
          Beneficiaries using               4,444          6,200          12,739       14,024       19,622          20,047
          chiropractic services
          Number of                       40,684         29,908         106,676        79,144     178,424         116,802
          treatments received
          Treatments per                     9.15              4.82         8.37         5.64         9.09            5.83
          beneficiary



Chiropractic utilization was lower in managed care risk plans
that allowed direct access than in fee-for-service
Beneficiary use

         Beneficiaries enrolled in managed care plans that allowed direct access used chiropractic
         services to a lesser extent than did beneficiaries enrolled in fee-for-service. For example,
         in 1998, 2.14 percent of beneficiaries enrolled in managed care risk plans that allowed
         direct access used chiropractic services. Conversely, 4.42 percent of beneficiaries enrolled
         in fee-for-service used chiropractic services.




Chiropractic Care: Medicare Managed Care and Fee-For-Service     8                                           OEI-04-97-00495
                                                Table 5
             Beneficiaries Using Chiropractic Services: Managed Care Direct Access versus
                                            Fee-For-Service
                                                1996                           1997                        1998
                                        Direct          FFS             Direct         FFS          Direct          FFS
                                       Access                          Access                      Access
                                      (17 plans)                      (35 plans)                  (43 plans)
          Number of Medicare             522,727     33,509,382         762,904 32,933,535          919,037 32,545,955
          Beneficiaries
          Beneficiaries using               4,444      1,391,600          12,739      1,405,400       19,622      1,437,200
          chiropractic services
          Percent using                    0.85%          4.15%           1.67%          4.27%        2.14%           4.42%
          chiropractic services


         Although beneficiary use was less in plans that allowed direct access, the process for
         beneficiaries to obtain chiropractic services was similar to that for beneficiaries in fee-for-
         service. The process allowed beneficiaries to go directly to chiropractors and other
         providers without requiring a physician referral.

Treatments per beneficiary

         Beneficiaries enrolled in managed care risk plans that allowed direct access received 9.09
         treatments per beneficiary in 1998. This is comparable to the 9.39 treatments per
         beneficiary in fee-for-service for the same year.

                                              Table 6
          Chiropractic Treatments Per Beneficiary: Managed Care Direct Access versus Fee-
                                            For-Service
                                                1996                           1997                        1998
                                        Direct          FFS             Direct         FFS          Direct          FFS
                                       Access                          Access                      Access
                                      (17 plans)                      (35 plans)                  (43 plans)
          Beneficiaries using               4,444      1,391,600          12,739      1,405,400       19,622      1,437,200
          chiropractic services
          Number of                       40,684 12,274,583             106,676 12,957,421          178,424 13,491,616
          treatments received
          Treatments per                     9.15              8.82         8.37           9.22         9.09            9.39
          beneficiary



Chiropractors provided most of the chiropractic treatments
to beneficiaries in managed care risk plans
         All 244 managed care risk plans that responded to our survey provided the chiropractic
         benefit of manual manipulation of the spine to correct a subluxation. Of the 244 plans,

Chiropractic Care: Medicare Managed Care and Fee-For-Service     9                                             OEI-04-97-00495
         231 used both chiropractors and other providers to perform chiropractic services. Other
         providers included osteopaths, doctors of medicine, orthopedists, physical therapists,
         physiatrists, and rheumotologists. The remaining 13 plans did not use chiropractors, but
         relied solely on the other providers to perform chiropractic services.

         As mentioned in our methodology, only 125 of the 244 plans provided complete
         utilization data for 1998. Of the 125 plans, 110 provided their chiropractic utilization data
         by the type of provider who performed the service. Figure 1 shows that chiropractors
         performed 91.42 percent of the chiropractic treatments in 1998 for the 110 managed care
         risk plans.
        Figure 1
                                          Percent of Treatments Performed
                                              by Provider Type in 1998

                                                                    M.D. (2.46%)
                                          OTHER (3.56%)              D.O. (2.56%)




                                             D.C. (91.42%)




         In contrast, 99.96 percent of chiropractic treatments were performed by chiropractors
         under the fee-for-service program in 1998.


Managed care risk plans did not use co-payments to limit
beneficiary access to chiropractic services
         Of the 244 managed care risk plans, 220 required a co-payment for chiropractic services
         and 24 did not. Of the 220 risk plans, 219 established pre-set co-payment amounts. The
         co-payments ranged from $3-$27 with the most common co-payment being $5. The
         remaining plan set the co-payment at 20 percent of the charged amount.

         Chiropractic co-payments in 208 of the 219 plans were the same as co-payments for
         similar services -- primary care physician office visits, physical therapy, or podiatry
         services. In 10 plans, the co-payment for chiropractic services was $6 higher, on average,
         than such similar services. The remaining plan’s chiropractic co-payment was $2 lower
         than such similar services.

         In addition, the chiropractic co-payment in managed care plans was similar to that of fee-
         for-service. The fee-for-service co-payment is 20 percent of allowed charges. The
         average allowed charge in 1998 was $27.75. Hence, the average co-payment was $5.55.


Chiropractic Care: Medicare Managed Care and Fee-For-Service   10                        OEI-04-97-00495
                                     AGENCY COMMENTS


The HCFA concurred with our findings and offered several technical comments. The full text of
their comments is in Appendix C.

In response to HCFA comments, we added a summary table on chiropractic utilization from 1996
through 1998 in Appendix B. We further explained that chiropractors and other physicians can
provide manual manipulation of the spine. Finally, we clarified that beneficiary utilization of
chiropractic services can differ among fee-for-service and managed care plans.

We did not add a comparison of chiropractic utilization of fee-for-service and managed care
organizations in rural versus urban areas as HCFA suggested. This was beyond the scope of our
study. We also did not make any enrollment comparisons for the entire population of managed
care plans as HCFA suggested. As explained in our methodology not all plans responded to our
survey. Therefore, we only had enrollment data for the 244 plans that responded.




Chiropractic Care: Medicare Managed Care and Fee-For-Service   11                  OEI-04-97-00495
                                                                                            APPENDIX A


          Analysis of Respondents versus Non-Respondents

         A consideration in using surveys is whether the results may be biased by significant
         differences between respondents and non-respondents. To determine if significant
         differences occurred in this survey, we conducted two separate analyses. The first was an
         analysis of plans that responded to the survey versus plans that did not respond. The
         second analysis was conducted because all respondents did not provide complete
         utilization data.

Analysis of respondents vs. non-respondents
         We surveyed all 310 Medicare managed care risk plans in April 1999. Out of the 310, 244
         plans responded to our survey, while 66 plans did not respond. The number of enrollees
         as of April 1999 was the only information we had on both the responding and the non-
         responding plans. We ranked the 310 plans based on ascending enrollment size. We then,
         split the plans into three equal groups — small, medium, and large. We defined small
         plans as those with 0 to 3,901 enrollees, the medium with 3,902 to 14,985 enrollees, and
         the large with 14,986 or more enrollees. This analysis is shown in Table 1 below.

                                                   Table 1
                                  Number of Respondents versus Non-Respondents
             Size of Plan           Number of                   Percent of     Number of Non-   Percent of Non-
                                   Respondents                 Respondents      Respondents      respondents

            Small                                 75                     31%               29              44%

            Medium                                79                     32%               24              36%

            Large                                 90                     37%               13              20%

            Totals                              244                                        66

            Chi-Square =7.57- Significant at the 95 percent confidence level
            df=2

         Due to the significant chi-square statistic, additional analysis was necessary. To determine
         whether significant differences existed in this survey, we analyzed co-payment
         requirements, and whether direct access was allowed or a physician referral was required.
         For each of these analyses, we found no relationship based on plan size which suggests
         that no statistical bias was evident.




Chiropractic Care: Medicare Managed Care and Fee-For-Service    A-1                                OEI-04-97-00495
Analysis of utilization data and utilization reviews
         Out of 244 respondents, 125 provided complete utilization data for 1998. In order to test
         for bias with respect to the utilization data not provided by the remaining 119 plans, we
         performed an analysis on a question where all 244 plans provided a response.

         In the survey, we asked, “Do you conduct utilization reviews for manual manipulation of
         the spine?” The Table below shows that out of 244 respondents, 75 plans indicated “yes”
         they did conduct utilization reviews, and 169 plans indicated “no” they did not conduct the
         reviews. We then, broke out the “yes and no” answers according to whether or not the
         plan provided utilization data. Table 2 below shows this break down.

                                                 Table 2
               Analysis of Conducting Utilization Reviews by Whether Utilization Data was
                                                Provided
                                                                     Did the plans conduct utilization
                                                                                 reviews?

                                                                          Yes                No             Totals

            Responses from all 244 plans                                   75 (31%)         169 (69%)             244
            (% of Total)

            Number of plans that provided utilization                      52 (42%)          73 (58%)             125
            data (% of Total)

            Number of plans that did not provide                           23 (19%)          96 (81%)             119
            utilization data (% of Total)

            Chi-square=14.21- Significant at the 99 percent confidence level
            df=1

         Since the chi-square test was significant, we performed an analysis on plans that provided
         utilization data based on whether or not plans conducted utilization reviews.

         When 125 plans provided utilization data, the difference between conducting or not
         conducting utilization reviews varied by .55 percent. Approximately 1.72 percent of
         beneficiaries enrolled in plans that conducted utilization reviews, and provided utilization
         data used chiropractic services. Whereas, 1.17 percent of beneficiaries enrolled in plans
         that did not conduct utilization reviews, and provided utilization data used chiropractic
         services. This data is shown in Table 3 below.

         Among the 125 plans that provided utilization data, beneficiaries enrolled in plans that
         conducted utilization reviews received about 2.03 treatments more per beneficiary than
         plans that did not conduct utilization reviews. Table 3 shows that the plans that
         conducted utilization reviews averaged 8.31 treatments per beneficiary. Whereas, the
         plans that did not conduct utilization reviews averaged 6.28 treatments per beneficiary.




Chiropractic Care: Medicare Managed Care and Fee-For-Service   A-2                                       OEI-04-97-00495
                                                   Table 3
                 Chiropractic Utilization by Plans that Did and Did Not Conduct Utilization
                                                   Reviews
              Conduct          Number of         Small         Medium     Large        # of            # of
             Utilization         1998            Plans          Plans     Plans    beneficiaries   treatments
              Reviews          Enrollees                                           used service     received

            Yes                  1,324,889             13            18       21          22,723        188,782

                                                  10.4%          14.4%     16.8%          1.72%             8.31

            No                   1,442,529             18            29       26          16,946        106,444

                                                  14.4%          23.2%     20.8%          1.17%             6.28

            Totals               2,767,418             31            47       47          39,669        295,226

                                                  24.8%          37.6%     37.6%          1.43%             7.44




Chiropractic Care: Medicare Managed Care and Fee-For-Service   A-3                                 OEI-04-97-00495
                                                                                                                                                          APPENDIX B


         Summary of Chiropractic Utilization: Managed Care Plans versus Fee-For-Service from 1996 through 1998

                                              1996                                                  1997                                              1998

                                  MC risk plans                    FFS                  MC risk plans               FFS                   MC risk plans                    FFS

                         PCP         Direct                                    PCP         Direct                                PCP         Direct
                       referral      Access          Total                   referral      Access       Total                  referral      Access       Total
                         (40)         (17)           (57)                      (64)         (35)        (99)                     (82)         (43)        (125)

# of Medicare         1,009,529     522,727      1,532,256      33,509,382   1,461,331 762,904       2,224,235   32,933,535   1,848,381     919,037   2,767,418     32,545,955
beneficiaries

Beneficiaries         6,200         4,444        10,644         1,391,600    14,024       12,739     26,763      1,405,400    20,047        19,622    39,669        1,437,200
using chiropractic
services

% using               0.61%         0.85%        0.69%          4.15%        0.96%        1.67%      1.20%       4.27%        1.08%         2.14%     1.43%         4.42%
chiropractic
services

# of treatments       29,908        40,684       70,592         12,274,583   79,144       106,676    185,820     12,957,421   116,802       178,424   295,226       13,491,616
received

Treatments per        4.82          9.15         6.63           8.82         5.64         8.37       6.94        9.22         5.83          9.09      7.44          9.39
beneficiary




 Chiropractic Care: Medicare Managed Care and Fee-For-Service                            B-1                                                                      OEI-04-97-00495
                                                                     APPENDIX C




Chiropractic Care: Medicare Managed Care and Fee-For-Service   C-1       OEI-04-97-00495
Chiropractic Care: Medicare Managed Care and Fee-For-Service   C-2   OEI-04-97-00495
Chiropractic Care: Medicare Managed Care and Fee-For-Service   C-3   OEI-04-97-00495
Chiropractic Care: Medicare Managed Care and Fee-For-Service   C-4   OEI-04-97-00495
